No. 20-366
444444444444444444444444444444444444444444
IN THE

Supreme Court of the United States
____________________

DONALD J. TRUMP, PRESIDENT OF THE UNITED
STATES, ET AL., Appellants,
v.
NEW YORK, ET AL., Appellees.
____________________
On Appeal from the United States District Court for
the Southern District of New York
____________________
Brief Amicus Curiae of
Citizens United,
Citizens United Foundation, and
The Presidential Coalition, LLC
in Support of Appellants
____________________
MICHAEL BOOS
Executive Vice President
and General Counsel
CITIZENS UNITED
1006 Penn. Ave., SE
Washington, DC 20003

*Counsel of Record

JEREMIAH L. MORGAN*
WILLIAM J. OLSON
ROBERT J. OLSON
HERBERT W. TITUS
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
jmorgan@lawandfreedom.com
wjo@mindspring.com
Attorneys for Amici Curiae
October 30, 2020

444444444444444444444444444444444444444444

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . iii
INTEREST OF THE AMICI CURIAE . . . . . . . . . . . . . . . . 1
COURSE OF PROCEEDING . . . . . . . . . . . . . . . . . . . . . . 2
SUMMARY OF ARGUMENT. . . . . . . . . . . . . . . . . . . . . . 4
ARGUMENT
I.

THE MOTION TO AFFIRM FILED BY THE
GOVERNMENT APPELLEES REVEALS THE
WEAKNESS OF THE DISTRICT COURT DECISION . 5
A. The “Whole Number” of Persons
Argument . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
B. Legislative History . . . . . . . . . . . . . . . . . . . . 9
C. Department of Commerce v. New York
(2019) — Standing . . . . . . . . . . . . . . . . . . . 10
D. Department of Commerce v. U.S. House
of Representatives (1999) — Ripeness . . . 11
E. Franklin v. Massachusetts (1992) . . . . . . . 13

II. THE CONSTITUTION PROVIDES BROAD
DISCRETION TO CONGRESS IN THE CONDUCT
OF THE CENSUS, AND THE CENSUS ACT VESTS
THAT DISCRETION IN THE EXECUTIVE . . . . . . . . 13

ii
III. THE DECENNIAL CENSUS SHOULD NOT BE
USED TO ALLOW FOREIGN NATIONALS TO
INFLUENCE OUR NATIONAL GOVERNANCE . . . . 18
IV. THE THREE-JUDGE DISTRICT COURT
ERRONEOUSLY ASSUMED THAT THE
DECENNIAL CENSUS IS REQUIRED TO COUNT
ILLEGAL ALIENS . . . . . . . . . . . . . . . . . . . . . . . . 22
A. The Three-Judge Court Supported Its
Decision Not from the Constitution, but
on a Practice that Developed under
Different Circumstances and by Different
Administrations . . . . . . . . . . . . . . . . . . . . . 22
B. The Purpose of the Decennial Census . . . . 25
C. The “Persons” of the Decennial Census. . . 26
D. The “People” in the Decennial Census . . . 27
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

iii
TABLE OF AUTHORITIES

Page

U.S. CONSTITUTION
Article I, Section 2, Clause 1 . . . . . . . . . . . . . . 26, 28
Article I, Section 2, Clause 3 . . . . . . . . . . . . 5, passim
Article I, Section 9, Clause 8 . . . . . . . . . . . . . . . . . 20
Amendment XII . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Amendment XIV. . . . . . . . . . . . . . . . . . . . . . 5, passim
STATUTES
N.Y. Elec. Law § 5-102 . . . . . . . . . . . . . . . . . . . . . . 21
N.Y. Elec. Law § 17-132 . . . . . . . . . . . . . . . . . . . . . 21
2 U.S.C. § 2a . . . . . . . . . . . . . . . . . . . . . . . . . 8, 16, 22
13 U.S.C. § 5 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
13 U.S.C. § 9 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
13 U.S.C. § 141 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
18 U.S.C. § 611 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
22 U.S.C. § 611 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
52 U.S.C. § 30121 . . . . . . . . . . . . . . . . . . . . . . . 20, 21
CASES
Department of Commerce v. New York, 139
S. Ct. 2551 (2019). . . . . . . . . . . . . . . . . 10, 11, 18
Department of Commerce v. U.S. House of
Representatives, 525 U.S. 316 (1999) . . . . 12, 15
Franklin v. Massachusetts, 505 U.S. 788
(1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13, 16
United States v. Verdugo-Urquidez, 494 U.S.
259 (1990). . . . . . . . . . . . . . . . . . . . . . . . . . 28, 29
United States ex. rel. Turner v. Williams, 194
U.S. 279 (1904). . . . . . . . . . . . . . . . . . . . . . . . . 29

iv
MISCELLANEOUS
A. Budiman, et al., “Facts on U.S. immigrants,
2018,” Pew Research Center (Aug. 20, 2020) . 24
The Congressional Globe 1291 (1866) . . . . . . . . . . . 9
The Federalist (G. Carey & J. McClellan, eds.:
Liberty Press 2001) . . . . . . . . . . . . . . . 20, 21, 26
83 Fed. Reg. 5525, 5533 (Feb. 8, 2018) . . . . . . . . . 16
The Founder’s Constitution, P. Kurland &
R. Lerner (Univ. Chi. 1987). . . . . . . . . . . . . . . 27
GAO Report GAO-04-1077T, “2010 Census:
Counting Americans Overseas as Part
of the Census Would Not Be Feasible” . . . . . . 17
M. O’Brien, “How Many Illegal Aliens Live in
the United States?” FAIR (Sept. 2019) . . . . . . 24
J. Story, Commentaries on the Constitution
(5th ed. 1891) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
U.S. Attorney General Opinion, “Seventeenth
Decennial Census,” 41 Op. Att’y Gen. 31
(Aug. 26, 1949) . . . . . . . . . . . . . . . . . . . . . . 17, 18
Webster’s Dictionary of 1828 . . . . . . . . . . . . . . . . . 27

INTEREST OF THE AMICI CURIAE1
Citizens United is a nonprofit social welfare
organization, exempt from federal income tax under
Internal Revenue Code (“IRC”) section 501(c)(4).
Citizens United Foundation is a nonprofit educational
and legal organization, exempt from federal income tax
under IRC section 501(c)(3).
The Presidential
Coalition, LLC is an IRC section 527 political
organization. Amici organizations were established,
inter alia, for the purpose of participating in the public
policy process, including conducting research, and
informing and educating the public on the proper
construction of state and federal constitutions, as well
as statutes related to the rights of citizens, and
questions related to human and civil rights secured by
law.
These same amici filed an amicus brief in support
of the Jurisdictional Statement in this case on October
2, 2020.
Citizens United and Citizens United
Foundation also filed an amicus brief in this Court on
March 6, 2019 in Department of Commerce, et al. v.
New York, et al., 139 S. Ct. 2551, 204 L. Ed. 2d 978
(2019). A component of Citizens United, National
Citizens Legal Network, filed an amicus brief in this
Court on November 3, 1998, in Department of
Commerce v. U.S. House of Representatives, 525 U.S.
316 (1999).

1

It is hereby certified that counsel for Petitioners and
Respondents have consented to the filing of this brief; that no
counsel for a party authored this brief in whole or in part; and
that no person other than these amici curiae, their members, or
their counsel made a monetary contribution to its preparation or
submission.

2
COURSE OF PROCEEDING
On September 22, 2020, the United States filed its
Jurisdictional Statement, seeking this Court’s review
of the decision of a three-judge district court in the
Southern District of New York. There followed
motions practice concerning Appellant’s request for
expedited consideration. The Government Appellees
filed a Motion to Affirm, and the Non-Governmental
Appellees filed a Motion to Dismiss or Affirm, in
opposition to the Jurisdictional Statement on October
7. On October 13, the United States filed its Reply
Brief.
On October 16, this Court postponed
consideration of the question of jurisdiction to
consideration on the merits, establishing a briefing
schedule and setting the case for argument on
November 30, 2020.
The three-judge district court order, entered on
September 10, 2020, now under review, granted
summary judgment to an assemblage of Democratcontrolled state and local governmental units and proimmigration nongovernmental Plaintiffs, as well as
granting declaratory relief on their statutory claims.
New York v. Trump, 2020 U.S. Dist. LEXIS 165827 at
*130 (Sept. 10, 2020) (hereinafter New York).
Additionally, the court granted a permanent injunction
prohibiting all federal government Defendants, except
the President of the United States, from implementing
President Trump’s Memorandum of July 21, 2020,
which directed he would be provided the data
necessary to ensure the nation’s Decennial Census
could be employed to exclude illegal aliens in the

3
reapportionment of the House of Representatives. Id.
at *129.
In his July 21, 2020 Memorandum, President
Trump declared:
For the purpose of the reapportionment of
Representatives following the 2020 census, it
is the policy of the United States to exclude
from the apportionment base aliens who are
not in a lawful immigration status under the
Immigration and Nationality Act ... to the
maximum extent feasible and consistent with
the discretion delegated to the executive
branch.
[Presidential Memorandum on
Excluding Illegal Aliens From the
Apportionment Base Following the 2020
Census, Section 2 (July 21, 2020).]
In that Memorandum, President
explained the reasons for that policy:

Trump

then

Excluding these illegal aliens from the
apportionment base is more consonant with
the principles of representative democracy
underpinning our system of Government.
Affording congressional representation, and
therefore formal political influence, to States
on account of the presence within their borders
of aliens who have not followed the steps to
secure a lawful immigration status under our
laws undermines those principles. Many of
these aliens entered the country illegally in
the first place. Increasing congressional

4
representation based on the presence of aliens
who are not in a lawful immigration status
would also create perverse incentives
encouraging violations of Federal law. States
adopting policies that encourage illegal aliens
to enter this country and that hobble Federal
efforts to enforce the immigration laws passed
by the Congress should not be rewarded with
greater representation in the House of
Representatives. [Id.]
Lastly, President Trump directed the Secretary of
Commerce to provide him with information permitting
him to exercise his discretion to implement that policy.
See Memorandum, Section 3.
SUMMARY OF ARGUMENT
The Motion to Affirm filed by the State of New
York and the other Government Appellees reveals the
weakness of their position. Their Motion to Affirm
raised several arguments which now will be considered
on the merits, but none of which are as helpful to their
case as they view them. For example, Government
Appellees heavy reliance on the language “whole
number of persons” ignores the obvious contextual
meaning of that phrase. See Section I, infra.
Neither the Constitution nor the Census Act
prevent the President from implementing the policy
declared in his July 21, 2020 Memorandum. The
executive has been given sufficient discretion by
Congress to exclude illegal aliens from the

5
apportionment base from the 2020 Census data. See
Section II, infra.
The Government Appellees’ obvious purpose is to
increase their political power. The policy set out in the
Presidential Memorandum is fully consistent with
several constitutional and statutory provisions which
are designed to protect our republic’s political
institutions from improper foreign influence. See
Section III, infra.
If the per curiam opinion of the three-judge district
court were left to stand, the federal judiciary not only
would have usurped the President’s role in conducting
the nation’s Decennial Census, but also directed that
the composition of the House of Representatives be
determined in a manner which violates Article I,
Section 2, Clause 3, as modified by Section 2 of the
Fourteenth Amendment. See Section IV, infra.
Accordingly, these amici urge this Court to reverse
the decision of the district court, with instructions to
dismiss the case.
ARGUMENT
I.

THE MOTION TO AFFIRM FILED BY THE
GOVERNMENT APPELLEES EXPOSES THE
WEAKNESS OF THE DISTRICT COURT
DECISION.

In opposing the Federal Government’s
Jurisdictional Statement, the Government Appellees
described Appellants’ challenge to their standing and

6
request for reversal as “baseless” and “meritless.”
They claim the Federal Government’s defenses are a
ruse to “avoid judicial review” of “an unprecedented
and blatantly unlawful exclusion of undocumented
immigrants.” Motion to Affirm for Government
Appellees (“Gov’t Appellees Br.”) at 11. As “baseless”
appeals do not generally come before this Court, a
claim that the other side has no argument whatsoever
often signals a desire to divert attention from the
weakness of that side’s own legal arguments.
Although following sections infra expand on most of
these issues, this initial section focuses on exposing
five flawed arguments made by the Government
Appellees in their filing at the Jurisdictional
Statement level that were offered in an effort to shore
up the district court decision.
A.

The “Whole
Argument.

Number”

of

Persons

The Government Appellees described the district
court decision as determining that the exclusion of
illegal aliens from the representation base violated
“the statutory command to include ‘the whole
number of persons in each State’ — i.e., everyone who
lives here — in calculating and transmitting
apportionment figures to Congress. 2 U.S.C. § 2a(a).”
Gov’t Appellees Br. at 21 (emphasis added). The
Government Appellees further contended that the
Fourteenth Amendment contains a “requirement to
apportion based on ‘the whole number of persons in
each State’ ... to encompass all individuals who usually
reside here for both the decennial enumeration of total
population and the corresponding apportionment

7
base.” Id. at 22 (citations omitted) (emphasis added).
In truth, the use of the phrase the “whole number of
persons in each state” in the Census Act and the
Fourteenth Amendment provides no textual support
for their position. The phrase “whole number” had its
first use in Article I, Section 2, Clause 3, and
understood in context, has an entirely different
meaning from that which Government Appellees urge.
Article I, Section 2, Clause 3 (prior to ratification
of the Fourteenth Amendment) included the following
provision:
Representatives and direct Taxes shall be
apportioned among the several States which
may be included within this Union, according
to their respective Numbers, which shall be
determined by adding to the whole Number
of free Persons, including those bound to
Service for a Term of Years, and excluding
Indians not taxed, three fifths of all other
Persons. [Emphasis added.]
When placed in proper context, it becomes clear that
the phrase “whole Number” of free Persons had but
one purpose — to establish the full weight given to
“free Persons” (100 percent) as distinguished from the
fractional weight given to “all other Persons” (60
percent or three-fifths). That phrase has nothing
whatsoever to do with the proposition asserted by the
Government Appellees — that the phrase means that
the apportionment base must include “everyone who
lives here,” including persons who have no legal right
to be here.

8
The Fourteenth Amendment, Section 2, also
employed that same phrase, to amend and undo the
provision in Article I giving different weight to
different classes of persons:
Representatives shall be apportioned among
the several States according to their respective
numbers, counting the whole number of
persons in each State, excluding Indians not
taxed. [Emphasis added.]
Insofar as Section 2 of the Fourteenth Amendment was
designed to modify Article I, Section 2, Clause 3, it is
clear that the identical phrase in the Amendment is,
again, wholly unrelated to the proposition for which it
is asserted by Government Appellees.
Lastly, the Census Act also employs that phrase:
On the first day, or within one week
thereafter, of the first regular session of the
Eighty-second Congress and of each fifth
Congress thereafter, the President shall
transmit to the Congress a statement showing
the whole number of persons in each State,
excluding Indians not taxed.... [2 U.S.C.
§ 2a(a) (emphasis added).]
Essentially tracking the provisions in Article I and the
Fourteenth Amendment, the Census Act provides no
support for the proposition for which it is cited by the
Government Appellees.

9
B.

Legislative History.

Among the legal authorities on which the
Government Appellees ask this Court to base its
decision was a speech by a Senator in 1940 that “‘every
man, woman, and child within the confines of this
Republic’ was entitled to representation.” Gov’t
Appellees Br. at 24. The Government Appellees assert
that the Trump Memorandum “violates the plain text
and purpose of both the Census Act and the
Constitution,” and their brief addresses “both sources
of law together.” Id. at 21-22. The Government
Appellees speak of President Trump “improperly
strip[ping] representation from ... undocumented
immigrants” (id. at 28), when, under the Constitution,
the persons who are represented in the People’s House
are the People of the United States — a term which
does not include foreign nationals who have snuck
across the border or overstayed their visas, generally
not by some accident, but in flagrant violation of our
nation’s laws. See Section IV.D.
The Government Appellees also cite as authority
a statement by Representative John Bingham that the
“‘whole immigrant population should be numbered
with the people....’” Id. However, they do not state
whether they also agree with Mr. Bingham’s view that
“every human being born within the jurisdiction of the
United States of parents not owing allegiance to
any foreign sovereignty is ... a natural born citizen.”
The Congressional Globe 1291 (1866) (emphasis
added). Of course, if the Government Appellees
embrace that view, they now would be required to
remove Kamala Harris as a candidate for Vice

10
President of the United States from their state ballots,
as both her parents were foreign nationals at the time
of her birth. See also the Twelfth Amendment.
C.

Department of Commerce v. New York
(2019) — Standing.

The Government Appellees assert that the alleged
harm to plaintiffs is not “‘speculative,’” but rather can
readily be seen by using “common sense.” Id. at 12.
The Government Appellees believe that they have
shown harm because of what the district court termed
the “predictable effect” of Appellants’ actions.
Although the Government Appellees do not provide a
citation to that phrase in the decision below, it appears
once on page 40 and twice on page 86, where, in all
three instances, the district court relied on this Court’s
decision in Department of Commerce v. New York, 139
S.Ct. 2551, 2566 (2019). However, in the earlier case,
this Court was addressing the plaintiff’s contention
that asking a question about citizenship status on the
census form itself would decrease participation due to
“fears that the Federal Government will itself break
the law by using noncitizens’ answers against them
for law enforcement purposes.” Id. (emphasis
added). The Court then ruled:
we are satisfied that, in these
circumstances, respondents have met their
burden of showing that third parties will likely
react in predictable ways to the citizenship
question, even if they do so unlawfully and
despite the requirement that the Government

11
keep individual answers confidential.
(emphasis added).]

[Id.

Thus, in that 2019 case, the threat postulated was
deemed personal to the census responder — possible
prosecution or deportation. Here, however, the
Government Appellees can make no such argument.
See Reply Brief for the Appellants at 2. In the current
challenge, the Government Appellees have argued that
an illegal alien who somehow learns about President
Trump’s Memorandum, and realizes that his response
to the census might not be counted in allocating House
seats — and possibly distributing money to the state
in which he lived — would be more likely to refuse to
participate. The effort by the Government Appellees
to equate an illegal alien’s concrete, personal, and
individualized fear of being prosecuted, convicted,
jailed, or deported, with an illegal alien’s generalized
concern about how the House is apportioned, a policy
concern which he would share with many other
persons, is absurd. Chief Justice John Roberts found
standing in 2019 “in these circumstances.” The
circumstances in 2020 are completely inapposite, and
the effort by the Government Appellees to rely on
Chief Justice Roberts’ language relating to an entirely
different matter is completely unavailing.
D.

Department of Commerce v. U.S. House
of Representatives (1999) — Ripeness.

The Government Appellees reject out of hand the
Federal Government’s argument that a challenge to
the allocation of seats in the House of Representatives
should be brought only if and when any harm that the

12
Appellee states may suffer will be manifest rather
than speculative. Gov’t Appellees Br. at 18. In
opposition to that argument, the Government
Appellees assert that “[t]his Court and others have
regularly considered challenges to census- or
apportionment-related policies before the actual loss of
political representation.” Id. The only decision of this
Court cited as authority for its assertion was
Department of Commerce v. U.S. House of
Representatives, 525 U.S. 316 (1999). However, as
Justice Sandra Day O’Connor explained there, the
plaintiffs based their challenge on a provision in the
Census Act by which:
any person aggrieved by the use of any
statistical method in violation of the
Constitution, or any provision of law ... in
connection with the 2000 census ... to
determine the population for purposes of the
apportionment or redistricting of Members in
Congress, may in a civil action, obtain ... relief.
[Id. at 328-29.]
Justice O’Connor explained that, by adding this
provision to the Census Act to facilitate a court
challenge, “Congress has eliminated any prudential
concerns...” and also made clear that ripeness “is not
challenged here.” Thus, the only case from this Court
cited by the Government Appellees to support judicial
review at this time is not only readily distinguishable,
but the proposition for which it is now cited was also
never actually considered and ruled upon by this Court
in 1999.

13
E.

Franklin v. Massachusetts (1992).

The Government Appellees devoted an entire
section of their brief in an effort to demonstrate that
both “The Census Act and the Constitution Require
Appellants to Produce Apportionment Figures Based
Solely on the Census’s Enumeration.” Gov’t Appellees
Br. at 32. That section appears only three pages after
the Government Appellees had just explained that in
Franklin v. Massachusetts, 505 U.S. 788 (1992), this
Court determined that the Census enumeration was
insufficient and would need to be supplemented to
include “overseas federal personnel” because they
were “‘usual residents of the United States.’” Gov’t
Appellees Br. at 29. If the approach urged here by the
Government Appellees — which it claims requires that
apportionment figures be “Based Solely on the
Census’s Enumeration” — had been followed by this
Court in 1992, the Franklin decision would have
required the Executive Branch to exclude “overseas
federal personnel.”
II. THE CONSTITUTION PROVIDES BROAD
DISCRETION TO CONGRESS IN THE
CONDUCT OF THE CENSUS, AND THE
CENSUS ACT VESTS THAT DISCRETION IN
THE EXECUTIVE.
The district court never reached the constitutional
issues urged by appellees, ruling only that the
President’s Memorandum violated the Census Act.
The court ruled: “The Presidential Memorandum
deviates from, and thus violates ... statutory
requirements [2 U.S.C. § 2a and 13 U.S.C. § 141].”

14
New York at *104. Purporting to base its decision on
“the plain language of the statute” (id. at *110), the
district court denied to President Trump the discretion
which Congress has entrusted to all Presidents.
The Constitution requires that a decennial census
be taken for the purpose of “apportion[ing] among the
several States ... according to their respective
Numbers,” and vested in Congress the power to direct
an “actual Enumeration” — counting “the whole
number of persons in each State, excluding Indians not
taxed.”
Art. I, Sec. 2, cl. 3 and Fourteenth
Amendment, Sec. 2. The Constitution does not set out
the details of that requirement, but rather provides
that the census shall be conducted “in such Manner as
they shall by Law direct.” Art. I, Sec. 2, cl. 3. In turn,
Congress set the policies and procedures for the
conduct of each decennial census by statute in the
Census Act.
The Government Appellees would have this court
believe that in employing the phrase “whole number of
persons in each State,” the Constitution requires that
the census and apportionment base must include every
usual resident. The basic flaw in the Government
Appellees’ argument is their failure to address the
context of the phrase “whole number,” as discussed in
Section I.A., supra. However, the constitutional text
affords even more reasons to discard that
interpretation.
The constitutional text itself
establishes two exceptions to the “whole persons” rule
argued by Government Appellees. Both Article I and
the Fourteenth Amendment exclude “Indians not
taxed” from the supposed “whole number.”

15
Additionally, the Fourteenth Amendment requires
that representation for States which deny voting rights
to eligible citizens be reduced from the supposed
“whole number.” See Fourteenth Amendment, Sec. 2.
Further, the Census Act authorizes the Secretary
of Commerce to “‘take a decennial census of population
as of the first day of April of such year,’ [requiring] ‘the
tabulation of total population by States.’” Department
of Commerce v. U.S. House of Representatives at 321.
Section 141 of Title 13 requires the Secretary of
Commerce to take the decennial census “in such form
and content as he may determine.... In connection
with any such census, the Secretary is authorized to
obtain such other census information as necessary.”
The Census Act, codified in Title 13, provides a few
basic rules by which the Bureau of the Census
operates, such as protection of confidentiality (§ 9), but
otherwise vests great latitude in the executive,
directing the Secretary to “prepare questionnaires, and
[to] determine the inquiries, and the number, form,
and subdivisions thereof, for the statistics, surveys,
and censuses provided for in this title.” 13 U.S.C. § 5.
After the Secretary conducts the census, the
Secretary is required to report the “tabulation of total
population by States” to the President of the United
States within nine months of the April 1st census day,
but the Act does not specify details for that report. 13
U.S.C. § 141(b).
The Reapportionment Act of 1929 directs the
President to “transmit to the Congress a statement

16
showing the whole number of persons in each State,
excluding Indians not taxed, as ascertained under ...
each subsequent decennial census of the population,”
as well as the apportionment of seats in the House of
Representatives for the 50 States. 2 U.S.C. § 2a(a).
Beyond the instruction to transmit a statement and
the minimum contents required to be in that
statement, this provision does not specify details or
policies about the conduct of the census.
Under this broad grant of authority, the executive
properly decided to count federal employees serving
overseas. See Franklin v. Massachusetts, 505 U.S. 788
(1992). In Franklin, this Court explained that “§ 2a
does not curtail the President’s authority to direct the
Secretary in making policy judgments that result in
‘the decennial census.’” Id. at 799 (emphasis added).
The Census Bureau has developed the “usual
residence” standard to determine who to count. See 83
Fed. Reg. 5525, 5533 (Feb. 8, 2018). Thus, certain
foreign citizens who happen to be vacationing in the
United States on census day are not counted.
Similarly, other foreign diplomatic personnel are not
included in the census. See Jurisdictional Statement
at 27. Neither the Constitution nor the Census Act
expressly establish the residence criteria — it was a
discretionary decision about who should be counted as
part of the census and who should not. However, these
criteria by their very nature exclude from the census
count those individuals who would otherwise be
included by the district court’s simplistic view.

17
Likewise, Congress in the past has looked into the
feasibility of counting all overseas American citizens
(beyond the overseas federal employees included in the
1990 census), and the Government Accountability
Office (“GAO”) concluded that “[t]he Constitution and
federal statutes give the Bureau discretion over
whether to count Americans overseas.” See GAO
Report GAO-04-1077T, “2010 Census: Counting
Americans Overseas as Part of the Census Would Not
Be Feasible” at 3.
Indeed, over 70 years ago, the Attorney General
recognized the broad discretion provided to the
executive to conduct the decennial census:
The statutes governing the decennial censuses
have uniformly left the actual administration
of a great number of necessary details to the
judgment and discretion of the Director of the
Census. They charge the Director “to
superintend and direct the taking of censuses
of the United States.”... They have vested in
him broad discretion, with the approval of the
Secretary of Commerce, as to the “number,
form, and subdivision of the inquiries in the
schedules used to take the census.”...
Innumerable problems not unlike the one here
in question, which have not been dealt with in
the statutes, obviously arise frequently in the
taking of censuses. Decisions on such matters
have, historically, been made by the Director
of the Census, and the Congress has through
the years acquiesced in this practice. [U.S.
Attorney General Opinion, “Seventeenth

18
Decennial Census,” 41 Op. Att’y Gen. 31 (Aug.
26, 1949).]
The district court recognized executive discretion
for “policy judgments that result in the ‘decennial
census’” — but rejected any discretion to the President
once he receives the Secretary’s report. New York at
*108-09. However, neither the census clauses nor any
statute supports such a dichotomy. Congress could
enact more detailed rules for the executive’s duties
regarding the census, but until it does so, the judiciary
cannot impose such non-textual restrictions.
III. THE DECENNIAL CENSUS SHOULD NOT
BE USED TO ALLOW FOREIGN
NATIONALS TO INFLUENCE OUR
NATIONAL GOVERNANCE.
The President’s Memorandum now challenged had
established that it is “the policy of the United States to
exclude from the apportionment base aliens who are
not in a lawful immigration status” under the INA. 85
Fed. Reg. at 44680. Accordingly, the President stated:
“Excluding these illegal aliens from the apportionment
base is more consonant with the principles of
representative democracy underpinning our system of
Government.” Id.
Unlike this Court’s holding last year in
Department of Commerce v. New York, this policy is
clear and direct, and not subject to a claim that there
is any pretext about the purpose of the Presidential
Memorandum. Nor is there any pretext about the
Government Appellees’ goals in this litigation. By

19
including illegal aliens in the apportionment base, the
Appellees — which are primarily states and cities
dominated by Democrat Party officeholders — seek to
increase their representation in the House of
Representatives and increase the number of electoral
votes those states will have in future presidential
elections.
Let’s face it: their goal is partisan. That is the
same goal that states such as New York, Illinois, and
California are pursuing in adopting policies which
encourage illegal immigration, thwart immigration
enforcement, and establish sanctuary states and cities:
to maintain, and then increase, political power.
The Presidential Memorandum explains the
ultimate purpose of its directive:
“Affording
congressional representation, and therefore formal
political influence, to States on account of the presence
within their borders of aliens who have not followed
the steps to secure a lawful immigration status under
our laws undermines ... the principles of
representative democracy.” 85 Fed. Reg. 44680.
“States adopting policies that encourage illegal aliens
to enter this country and that hobble Federal efforts to
enforce the immigration laws passed by the Congress
should not be rewarded with greater representation in
the House of Representatives.” Id. President Trump’s
Memorandum establishing the policy of the United
States is not subject to judicial review and Article III
judges may not substitute their own policy preferences
for his.

20
Despite the effort by the Government Appellees to
make this policy seem new and strange, the Trump
Policy is not an outlier — it is fully consistent with
federal government policies that have been expressed
repeatedly, to protect our nation’s decision making
from foreign influence. It is part of a longstanding,
distinctly “America First” agenda, which the People
reaffirmed when they elected President Trump. That
policy gives primacy to the interests of the American
people over the interests of foreign nationals.
Moreover, it is fully consistent with two provisions
in the U.S. Constitution which are specifically
designed to protect the nation against foreign
influence. First, the foreign emoluments clause
prohibits any “Person holding any Office of Profit or
Trust” in the United States from accepting “any
present, Emolument, Office, or Title, of any kind
whatever, from any King, Prince, or foreign State”
without congressional consent. Art. I, Sec. 9, cl. 8.
Second, the Constitution requires that the President
and Vice President be “a natural born Citizen” in order
to reduce the ability of “foreign powers to gain an
improper ascendant in our councils.” Federalist No.
68.
And it is fully consistent with steps taken by
Congress in the Federal Election Campaign Act of
1971 to reduce foreign influence, such as by
prohibiting foreign nationals from participating in
elections in the United States. Section 30121 of Title
52 prohibits foreign nationals from directly or
indirectly making a contribution or donation to a
federal, state, or local election or to a political party or

21
from making any expenditure, independent
expenditure, or electioneering communication. See 52
U.S.C. § 30121(a).
Additionally, the Foreign Agents Registration Act
of 1938 requires an agent of a foreign principal who
engages in political activities in the United States or
who represents foreign interests before any federal
agency or official to register and report to the
Department of Justice. See 22 U.S.C. §§ 611, et seq.
The obvious purpose of this law is to provide
transparency to the American electorate of which
foreign actors are engaging in activities within the
United States that can affect the United States.
Federal law also prohibits any alien from voting in
federal elections except under limited circumstances.
See 18 U.S.C. § 611(a). Even lead Appellee State of
New York makes voter registration open only to those
who are citizens of the United States (see N.Y. Elec.
Law § 5-102(1)) and makes it crime for someone
ineligible to vote (see N.Y. Elec. Law § 17-132).
Alexander Hamilton, noting the deficiencies of the
Articles of Confederation, explained, “[o]ne of the weak
sides of republics, among their numerous advantages,
is that they afford too easy an inlet to foreign
corruption.” Federalist No. 22. Foreign nationals —
which illegal aliens by definition are — do not deserve
additional representation in Congress. And States
which provide havens for illegal aliens and adopt
“policies that encourage illegal aliens to enter this
country and that hobble Federal efforts to enforce the
immigration laws” should be thwarted in their efforts

22
to use foreign nationals to increase their political
power in the federal system.
The Reapportionment Act established a fixed
number of seats in the House of Representatives. So
if a state retains or gains congressional seats due to
the presence of illegal aliens in that state, others lose
seats. It is a zero-sum game. A state that does not
have policies which encourage illegal immigration
could lose one or more seats to the pro-illegal
immigration states, thus depriving lawful residents of
political power to which they are entitled. The
Government Appellees are not acting to defend seats
in the House that are rightly theirs; they are
demanding to be given House seats that belong to
other states.
IV. THE THREE-JUDGE DISTRICT COURT
ERRONEOUSLY ASSUMED THAT THE
DECENNIAL CENSUS IS REQUIRED TO
COUNT ILLEGAL ALIENS.
A. The Three-Judge Court Supported Its
Decision Not from the Constitution, but
on a Practice that Developed under
Different Circumstances and by Different
Administrations.
The district court opened its decision first by
reciting, without analysis, the text of Article I, Section
2, Clause 3, and 2 U.S.C. § 2a(a) — and then by
assuming that both the constitutional provision and
the statute require counting illegal aliens, because
that is how it has been done in the past:

23
Throughout the Nation’s history, the figures
used to determine the apportionment of
Congress — in the language of the current
statutes, the “total population” and the “whole
number of persons” in each State — have
included every person residing in the United
States at the time of the census, whether
citizen or non-citizen and whether living
here with legal status or without. [New
York at *10 (emphasis added).]
The record does not appear sufficient for the
district court to make such findings, but even if true,
the court, focusing on practice, diverted attention away
from the central legal issues:
What does the
Constitution require, and what authority does the
Census Act2 confer upon the President? The court
erroneously believed that the role of the President was
ministerial only, giving him no discretion to provide a
definition as to which persons should be considered
“inhabitants.” New York at *100-01. Note should be
taken of the very different circumstances that existed
when the “long-standing practice” relied on by the
district court developed. New York at *10.
The Pew Research Center, whose statistics are
often relied on by pro-immigrant groups, reports that
the number of what they term “unauthorized
immigrants” was quite small compared to the
population, and thus not consequential in apportioning
the House, until quite recently. For example, Pew
2

The Census Act was most recently amended in 90 Stat. 2459
(Oct. 17, 1976) and is codified in Title 13 of the U.S. Code.

24
reports there were a relatively modest 3.5 million
“unauthorized immigrants” in 1990. That number
exploded to 8.6 million in 2000, and grew even further
to 11.4 million in 2010.3 (Another immigration source
estimated that as of last year, there were 14.3 million
illegal aliens residing in the United States — more
than four times the number estimated in 1990.4) Thus,
the existence of a “long-standing practice” of
Presidents not addressing a problem that then was de
minimis provides no support for continuing that same
practice when the problem has become serious. As the
population of illegal aliens increased dramatically, and
because that population is not spread evenly over the
nation, its inclusion in the base population for the
2020 apportionment presents a significant threat of
distorting legislative power as reflected in the
distribution of House seats among the states.
A political factor is also at work. When the
number of illegal aliens first swelled in 2000, that
census was conducted by the Clinton Administration,
and the 2010 census was conducted by the Obama
Administration. It is not speculation to conclude that
neither of these Democrat Administrations had the
motivation to exclude illegal aliens from the House
apportionment as a strategic matter, as that would
grant additional House seats to states controlled by
Democrats, because the illegal alien population is

3

See A. Budiman, et al., “Facts on U.S. immigrants, 2018,” Pew
Research Center (Aug. 20, 2020).
4

See M. O’Brien, et al., “How Many Illegal Aliens Live in the
United States?,” FAIR (Sept. 2019).

25
concentrated in a handful of states such as New York
and Illinois — both plaintiffs in this litigation, and
both dominated by Democrats.
Lastly, the district court selectively focused on only
one aspect of past practice, ignoring other aspects of
that practice.
President Trump’s Memorandum
described the treatment of other categories of aliens in
the United States: “[A]liens who are only temporarily
in the United States, such as for business or tourism,
and certain foreign diplomatic personnel are ‘persons’
[but they] have been excluded from the apportionment
base in past censuses.” Memorandum of July 21, 2020,
Section 1. As to this practice, the district court never
even tried to explain why under its decision foreign
nationals in the United States illegally should be
counted, while foreign nationals lawfully in the
United States are not.
B. The Purpose of the Decennial Census.
Constrained both by (i) the purpose that
representation of the States in the House of
Representatives be proportionate to the populations of
each State, and (ii) the requirement to determine the
numbers of persons State by State, the decennial
census was not designed to count willy-nilly “every
person residing in the United States at the time of the
census” as the district court assumes to be the
practice. New York at *10. Rather, the constitutional
text contemplates a count of the number of persons
who constitute the “population” of each State. The
district court’s position disregards the central purpose
of the decennial census, namely, to ensure that

26
membership in the House of Representatives is based
upon the principle of popular sovereignty that its
members from each State would truly be “chosen every
second Year by the People of the several States.” See
Art. I, Sec. 2, cl. 1 (emphasis added).
James Madison aptly concluded in Federalist 52:
As it is essential to liberty, that the
government in general should have a common
interest with the people; so it is particularly
essential, that the branch ... should have an
immediate dependence on, and an intimate
sympathy with, the people. [The Federalist,
No. 52, p. 273 (G. Carey & J. McClellan, eds.:
Liberty Press 2001) (emphasis added).]
Madison’s “common interest” test would not include
those foreign nationals unlawfully in the country.
C. The “Persons” of the Decennial Census.
The use of the word “persons” in the Fourteenth
Amendment does not support opening the floodgates to
illegal aliens. Employed in the context of the
constitutionally prescribed decennial census, “person”
should be understood contextually — not abstractly as
denoting just any human being, but relationally, with
respect to the government as an “inhabitant” or
“constituent.” “Inhabitant” connotes a person who
“dwells or resides permanently in a place,”5 in contrast

5

Webster’s Dictionary of 1828.

27
with one who is an occasional lodger or visitor. Surely
the decennial census should not be counting a
foreigner who is on a tourist visa who just happened to
be on American soil on April 1, 2020. Likewise, an
illegal alien who could be deported at any time should
not be counted. See discussion of the more than 3.2
million aliens either in custody or likely in the process
of being deported as identified by the government,
Jurisdictional Statement at 29 n.4. The decennial
census is designed to number “constituents,” denoting
that those persons who are an essential part of the
political community. The district court envisions a
census counting the lawful permanent resident and
the trespasser alike — each to be counted as one of the
population of his respective State and therefore, each
to be counted in the apportionment of members of the
House of Representatives for the next 10 years. This
is not the kind of decennial census contemplated by
the nation’s founders. See J. Madison, Census Bill,
House of Representatives, Jan. 25-26, Feb. 2, 1790,
reprinted in 2 The Founder’s Constitution; item 19, p.
139, P. Kurland & R. Lerner (Univ. Chi. 1987).
D. The “People” in the Decennial Census.
Indeed, the language in the Fourteenth
Amendment cannot be viewed in isolation, but must be
viewed in the context of the original constitutional text
to determine if a substantive change was intended by
that Amendment’s use of the word “persons.”
Immediately after vesting “[a]ll legislative Powers ... in
a Congress,” the Constitution of 1789 establishes that:

28
The House of Representatives shall be
composed of Members chosen every second
Year by the People of the several States....
[Art. I, Sec. 2, cl. 1 (emphasis added).]
As Chief Justice William Rehnquist explained in
1990:
“[T]he people” seems to have been a term of
art employed in select parts of the
Constitution. The Preamble declares that the
Constitution is ordained and established by
“the People of the United States.” The
Second Amendment protects “the right of the
People to keep and bear Arms,” and the Ninth
and Tenth Amendments provide that certain
rights and powers are retained by and
reserved to “the people.” See also U.S.
Const., Amdt. 1 (“Congress shall make no law
... abridging ... the right of the people
peaceably to assemble”) (emphasis added)....
[United States v. Verdugo-Urquidez, 494 U.S.
259, 265 (1990) (bold emphasis added).]
Then, turning to the composition of the House, the
Chief Justice addressed Article I, Section 2, clause 1,
again italicizing the key words: “‘The House of
Representatives shall be composed of Members chosen
every second year by the People of the several States’
(emphasis added).” Id. (bold emphasis added). Based
on all this, Chief Justice Rehnquist concluded:
While this textual exegesis is by no means
conclusive, it suggests that “the people” ...

29
refers to a class of persons who are part of a
national community or who have otherwise
developed sufficient connection with this
country to be considered part of that
community. [Id. (emphasis added).]
And to clarify who would not be part of that
community, the Chief Justice cited United States ex.
rel. Turner v. Williams, 194 U.S. 279, 292 (1904), for
the proposition that:
(Excludable alien is not entitled to First
Amendment rights, because “he does not
become one of the people to whom these things
are secured by our Constitution by an attempt
to enter forbidden by law”). The language of
[the First, Second, Ninth, and Tenth]
Amendments contrasts with the words
“person” and “accused” used in the Fifth and
Sixth Amendments.... [Verdugo-Urquidez at
265-266.]
The Fourteenth Amendment did not denigrate the
concept of citizenship, but rather was designed to
clarify entitlement to national and state citizenship of
the former slave class. It would be a serious mistake
to assume that, solely based on the single use of the
word “persons,” Congress and the ratifying states
intended to apportion House seats by a count of all
persons, rather than a count of “the People.” Indeed,
even following the ratification of the Fourteenth
Amendment, the 1870 census asked about the
citizenship of each respondent, as well as whether the
respondent’s parents were foreign born, and also

30
inquired whether the respondent was a male citizen of
the United States 21 years old and older “whose right
to vote is denied or abridged on other grounds than
rebellion or other crime.” The Census of 1870,
Question 20.
CONCLUSION
For the reasons set out above, these amici urge
this Court to reverse the September 10, 2020 decision
of the three-judge court, ordering the district court to
dismiss the case.
Respectfully submitted,
MICHAEL BOOS
Executive Vice President
and General Counsel
CITIZENS UNITED
1006 Penn. Ave., SE
Washington, DC 20003

JEREMIAH L. MORGAN*
WILLIAM J. OLSON
ROBERT J. OLSON
HERBERT W. TITUS
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
jmorgan@lawandfreedom.com

wjo@mindspring.com
Attorneys for Amici Curiae
*Counsel of Record

October 30, 2020

